zj

No.
IN THE
SUPREME COURT OF THE UNTIED STATES

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE WITH WORD COUNT

BOBBY KNIGHT, a/k/a Bobby Knight, III,
Petitioner,
v.
JEH CHARLES JOHNSON, DHS SEC. etal.
Respondents.

i

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 39 pages & 7,291 words, textboxes, and footnotes, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct to the best of
my knowledge.
Executed on Soptombor 1,-2019 November 12, 2019 January 28, 2020

3
Bobby Knight, pro se
3940 Hottinger Ave.
North Charleston, S.C. 29405
(843) 735-0814

